December 2006
Report No. 07-001


FDIC’s Supervision of Financial
Institutions’ OFAC Compliance Programs




             AUDIT REPORT
                                                                                                             Report No. 07-001
                                                                                                               December 2006

                                           FDIC’s Supervision of Financial Institutions’
                                           OFAC Compliance Programs
                                           Results of Audit
                                           The FDIC’s supervisory approach to OFAC compliance includes examinations of
Background and Purpose                     controls established and implemented by FDIC-supervised financial institutions to
of Audit                                   ensure compliance with OFAC regulations. For the examinations we reviewed, FDIC
                                           examiners generally followed interagency guidelines in assessing the appropriateness
The U.S. Department of the                 of implemented controls and whether those controls were commensurate with the
Treasury’s Office of Foreign Assets        financial institutions’ specific product lines, customer base, nature of transactions, and
Control (OFAC) is responsible for          identification of high-risk areas. In addition, the FDIC has taken important steps to
promulgating, developing, and              address institutions’ OFAC compliance, such as participating in developing and issuing
administering economic and trade           interagency guidance for examiners and banking organizations, including notifications
sanctions such as trade embargoes,         on updates to OFAC’s SDN list; conducting OFAC-related training and outreach
blocked assets controls, and other         activities for examiners and the banking industry; issuing Bank Secrecy Act-related
commercial and financial restrictions      cease and desist orders that included OFAC-related provisions; and signing an
under the provisions of various laws.      interagency Memorandum of Understanding, which governs information-sharing
In general, OFAC regulations prohibit      between the Federal Banking Agencies and OFAC.
financial institutions from engaging in
transactions with the governments of,      The FDIC, however, could enhance its supervisory approach to OFAC compliance by
or individuals or entities associated      monitoring and tracking financial institution OFAC sanctions violations, compliance
with, foreign countries against which      program deficiencies, and OFAC-related enforcement actions. In addition, examiner
federal law imposes economic               work paper documentation and reports of examination could be improved with respect
sanctions. Sanctions also can be used      to examination planning and contact with OFAC, completing core examination
against dangerous groups and               procedures, and concluding on the adequacy of OFAC compliance programs and
individuals, such as international         interdiction systems used by financial institutions. These measures could assist the
narcotics traffickers, terrorists, and     FDIC and OFAC in addressing the risks associated with financial institution
foreign terrorist organizations,           noncompliance with OFAC regulations.
regardless of national affiliation.
                                           We also identified a matter for congressional consideration regarding examination and
As part of its enforcement efforts,        enforcement authorities associated with institution compliance with OFAC regulations.
OFAC publishes a list of individuals       Specifically, a more comprehensive statutory and regulatory framework exists for the
and companies controlled by, or            examination and enforcement of Bank Secrecy Act (BSA) compliance and the
acting for or on behalf of, targeted       establishment of BSA compliance programs than for OFAC compliance, although both
countries. The list also includes          BSA and OFAC requirements address national security and law enforcement concerns.
individuals and entities such as
terrorists and narcotics traffickers
designated under programs that are         Recommendations and Management Response
not country-specific. Collectively,
such individuals and entities are called   The report makes four recommendations for DSC to enhance its supervisory approach
Specially Designated Nationals and         to OFAC compliance by monitoring and tracking financial institution OFAC sanctions
Blocked Persons (SDN).                     violations, compliance program deficiencies, and OFAC-related enforcement actions;
                                           and issuing additional guidance to examiners to ensure consistent and comprehensive
The objective of this audit was to         documentation of OFAC compliance to better assist the FDIC and subsequent
determine whether the FDIC’s               examination teams in ensuring financial institution compliance with OFAC laws and
Division of Supervision and                regulations. DSC management concurred with two of the recommendations and agreed
Consumer Protection (DSC) provides         with the intent of the remaining two recommendations. Completed and planned actions
effective supervision of compliance        are responsive to all recommendations.
with OFAC regulations by FDIC-
supervised institutions.

To view the full report, go to
www.fdicig.gov/2007reports.asp
                            TABLE OF CONTENTS

BACKGROUND                                                    2

RESULTS OF AUDIT                                              3

DSC’S SUPERVISORY APPROACH TO OFAC COMPLIANCE                 4
 Evaluation of OFAC Compliance                                5
 Supervisory Monitoring                                       7
 Conclusion                                                   8
 Recommendation                                               8
 Corporation Comments and OIG Evaluation                      8

DOCUMENTATION OF DSC’S EXAMINATION COVERAGE OF                9
FINANCIAL INSTITUTION OFAC COMPLIANCE
 Recommendations                                             11
 Corporation Comments and OIG Evaluation                     11

MATTER FOR CONGRESSIONAL CONSIDERATION –                     11
AUTHORITIES FOR SUPERVISION OF OFAC COMPLIANCE
 Examination and Enforcement Authority for BSA Compliance    12
 Examination and Enforcement Authority for OFAC Compliance   12
 Conclusion                                                  14

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                15

APPENDIX II: REGULATORY AUTHORITY AND OVERSIGHT              20
FOR OFAC AND BSA COMPLIANCE

APPENDIX III: CORPORATION COMMENTS                           21

APPENDIX IV: MANAGEMENT RESPONSE TO                          24
RECOMMENDATIONS
ACRONYMS
AML        Anti-Money Laundering
BSA        Bank Secrecy Act
C&D        Cease and Desist Order
C.F.R.     Code of Federal Regulations
DSC        Division of Supervision and Consumer Protection
ED         Examination Documentation
FBA        Federal Banking Agency
FDI        Federal Deposit Insurance
FFIEC      Federal Financial Institutions Examination Council
FIL        Financial Institution Letter
FinCEN     Financial Crimes Enforcement Network
FRB        Federal Reserve Board
GAO        Government Accountability Office
MOU        Memorandum of Understanding
NCUA       National Credit Union Administration
OCC        Office of the Comptroller of the Currency
OFAC       Office of Foreign Assets Control
OIG        Office of Inspector General
OTS        Office of Thrift Supervision
RFPA       Right to Financial Privacy Act
SDN        Specially Designated Nationals and Blocked Persons
TEOAF      Treasury Executive Office for Asset Forfeiture
TFI        Office of Terrorism and Financial Intelligence
U.S.C.     United States Code
ViSION     Virtual Supervisory Information on the Net
    Federal Deposit Insurance Corporation                                                                 Office of Audits
    3501 Fairfax Drive, Arlington, VA 22226                                                  Office of Inspector General


DATE:                                         December 14, 2006

MEMORANDUM TO:                                Sandra L. Thompson, Director
                                              Division of Supervision and Consumer Protection

FROM:                                         Russell A. Rau [Electronically produced version; original signed
                                              by Russell A. Rau]
                                              Assistant Inspector General for Audits

SUBJECT:                                      FDIC’s Supervision of Financial Institutions’
                                              OFAC Compliance Programs (Report No. 07-001)


This report presents the results of the subject FDIC Office of Inspector General (OIG) audit. The
audit objective was to determine whether the FDIC’s Division of Supervision and Consumer
Protection (DSC) provides effective supervision of compliance with Office of Foreign Assets
Control (OFAC) regulations by FDIC-supervised institutions. All U.S. persons and entities,
including U.S. banks, holding companies, and non-bank subsidiaries, must comply with OFAC
regulations.1

To address our audit objective, we (1) assessed the FDIC’s statutory and regulatory authorities
for ensuring OFAC compliance by the institutions it supervises, (2) reviewed DSC’s supervisory
and examination processes for OFAC compliance, and (3) reviewed DSC’s OFAC examination
coverage at 16 sampled financial institutions. Our observations on statutory and regulatory
authorities may apply equally to the other Federal Banking Agencies (FBA),2 which also
examine financial institutions for OFAC compliance. Appendix I of this report discusses our
objective, scope, and methodology in detail.




1
  All U.S. persons must comply with OFAC regulations, including all U.S. citizens and permanent resident aliens,
regardless of where they are located; all persons and entities within the United States; and all U.S.-incorporated
entities and their foreign branches. Accordingly, all U.S. financial institutions; their branches and agencies;
international banking facilities; and domestic and overseas branches, offices, and subsidiaries must comply with
OFAC regulations, 31 Code of Federal Regulations (C.F.R.) Chapter V.
2
  FBAs include the FDIC, Office of the Comptroller of the Currency (OCC), Office of Thrift Supervision (OTS),
Federal Reserve Board (FRB), and National Credit Union Administration (NCUA), which collectively form the
Federal Financial Institutions Examination Council (FFIEC).
BACKGROUND

Within the U.S. Department of the Treasury (Treasury Department), the Office of Terrorism and
Financial Intelligence (TFI) marshals the department's intelligence and enforcement functions for
the purposes of safeguarding the nation’s financial system against illicit use and combating
terrorist facilitators, money launderers, drug kingpins, and various national security threats. TFI
is composed of several offices, including OFAC, the Financial Crimes Enforcement Network
(FinCEN), and the Treasury Executive Office for Asset Forfeiture (TEOAF).

OFAC is responsible for developing, promulgating, and administering sanctions for the Secretary
of the Treasury under various laws, including, but not limited to, the Trading With the Enemy
Act and the International Emergency Economic Powers Act. In general, OFAC regulations
prohibit financial institutions from engaging in transactions with the governments of, or
individuals or entities associated with, foreign countries against which federal law imposes trade
or economic sanctions. Sanctions can be used against dangerous groups and individuals, such as
international narcotics traffickers, terrorists, and foreign terrorist organizations, regardless of
national affiliation. Many of the sanctions are based on United Nations and other international
mandates, are multilateral in scope, and involve close cooperation with allied governments. The
U.S. Government has used economic sanctions as a tool against international terrorist
organizations since 1995, marking a significant departure from the traditional use of sanctions
against hostile countries or regimes. Following the terrorist attacks on September 11, 2001,
Executive Order 13224 entitled, Blocking Property and Prohibiting Transactions With Persons
Who Commit, Threaten to Commit, or Support Terrorism, was signed, significantly expanding
the scope of U.S. sanctions against international terrorists and terrorist organizations.

As part of its enforcement efforts, OFAC publishes a list of individuals and companies controlled
by, or acting for or on behalf of, targeted countries. The list also includes individuals and entities
such as terrorists and narcotics traffickers designated under programs that are not country-
specific. Collectively, such individuals and entities are called Specially Designated Nationals
and Blocked Persons (SDN).

OFAC regulations require financial institutions to block or reject accounts and transactions3 that
involve any persons, entities, or countries that are included on the SDN list. Specifically,
financial institutions must block transactions that are:

    •   by or on behalf of a blocked individual or entity,
    •   to or through a blocked entity, or
    •   in connection with a transaction in which a blocked individual or entity has an interest.


3
  Financial institutions should compare new accounts, which include deposits, loans, trusts, safe deposit boxes,
investments, credit cards, and foreign office accounts, and existing customer accounts against OFAC’s SDN list.
Blocked accounts are those for which payments, transfers, withdrawals, or other dealings may not be made except as
licensed by OFAC or otherwise authorized by the Treasury Department. Transactions include automated clearing
house transactions, funds transfers, letters of credit, non-customer transactions, and the sale of monetary
instruments. In some cases, the underlying transaction may be prohibited, but there is no blockable interest in the
transaction. In these cases, the financial institution should reject the transaction.

                                                        2
Further, financial institutions must file (1) initial reports within 10 days for accounts and
transactions that are blocked and/or rejected and (2) annual comprehensive reports on all blocked
property4 (held as of June 30) no later than September 30. An OFAC publication entitled,
Foreign Assets Control Regulations for the Financial Community, dated November 23, 2005,
provides guidance to financial institutions on monitoring financial transactions to ensure that
SDNs, narcotics traffickers, and terrorists do not benefit from access to our nation’s financial
system.

Violations of OFAC sanctions occur when a financial institution processes a transaction, with or
for an SDN, that should have been blocked or rejected.5 OFAC can impose civil money
penalties for violations of established sanctions. In addition, Title 18 United States Code
(U.S.C.) §1001 provides for criminal penalties associated with OFAC noncompliance.

FDIC safety and soundness examinations of FDIC-supervised financial institutions include an
assessment of financial institution compliance with Bank Secrecy Act (BSA)/Anti-Money
Laundering (AML) requirements.6 As part of the BSA/AML examinations, the FDIC assesses
financial institutions’ OFAC compliance programs. Interagency guidance7 entitled, Bank
Secrecy Act/Anti-Money Laundering Examination Manual,8 issued in June 2005 by the FFIEC
provides examination procedures related to BSA, AML, and OFAC examinations. OFAC
assisted in the development of the manual sections that relate to OFAC reviews. Further, in
January 2006, OFAC published guidelines entitled, Economic Sanctions Enforcement
Procedures for Banking Institutions,9 in the Federal Register that complement and expand upon
examination guidance for OFAC examinations.


RESULTS OF AUDIT

The FDIC’s supervisory approach to OFAC compliance includes examinations of controls
established and implemented by FDIC-supervised financial institutions to ensure compliance
with OFAC regulations. For the examinations we reviewed, FDIC examiners generally followed
interagency guidelines in assessing the appropriateness of controls implemented and whether
those controls were commensurate with the financial institutions’ specific product lines,
customer base, nature of transactions, and identification of high-risk areas. In addition, the FDIC


4
  Property is anything of value, such as money, checks, drafts, debts, obligations, notes, bills of sale, evidences of
title, negotiable instruments, trade acceptances, contracts, and anything else real (tangible or intangible), or personal,
and present, future, or contingent interests.
5
  OFAC has the authority, through a licensing process, to permit certain transactions that would otherwise be
prohibited under OFAC regulations when OFAC determines that the transaction does not undermine the U.S. policy
objectives of the particular sanctions program, or is otherwise justified by U.S. national security or foreign policy
objectives. In addition, OFAC can promulgate general licenses that authorize categories of transactions, such as
allowing reasonable service charges on blocked accounts, without the need for a case-by-case authorization from
OFAC.
6
  The Bank Secrecy Act of 1970, Public Law 91-508.
7
  Interagency guidance was issued by members of the FFIEC, FinCEN, and OFAC in June 2005 and was updated in
July 2006.
8
  On July 28, 2006, the FFIEC issued a revised BSA/AML Examination Manual. Revisions that relate to OFAC
include additional guidance on domestic and cross-border, automated clearing-house transactions.
9
  Interim final rule 31 C.F.R. 501.

                                                         3
has taken important steps to address institutions’ OFAC compliance at FDIC-supervised
financial institutions.

The FDIC, however, could enhance its supervisory approach to OFAC compliance by
monitoring and tracking financial institution OFAC sanctions violations, compliance program
deficiencies, and OFAC-related enforcement actions (DSC’s Supervisory Approach to OFAC
Compliance).

Further, examiner workpaper documentation and reports of examination could be improved with
respect to examination planning and contact with OFAC, completing core examination
procedures, and concluding on the adequacy of OFAC compliance programs and interdiction
systems10 used by FDIC-supervised financial institutions (Documentation of DSC’s OFAC
Reviews).

We also identified a matter for congressional consideration regarding examination and
enforcement authorities associated with institution compliance with OFAC regulations.
Specifically, a more comprehensive statutory and regulatory framework exists for the
examination and enforcement of BSA compliance and the establishment of BSA compliance
programs than for OFAC compliance and a related program, although both BSA and OFAC
requirements address national security and law enforcement concerns (Matter for
Congressional Consideration – Authorities for Supervision of OFAC Compliance).


DSC’S SUPERVISORY APPROACH TO OFAC COMPLIANCE

DSC’s supervisory approach to OFAC compliance includes examinations of controls established
and implemented by FDIC-supervised financial institutions to ensure compliance with OFAC
regulations. For the examinations we reviewed, FDIC examiners generally followed interagency
guidelines in assessing the appropriateness of controls implemented and whether those controls
were commensurate with financial institutions’ OFAC risk assessments. In addition, DSC has
taken the following steps to address institutions’ OFAC compliance:

     •   participated in developing and issuing interagency guidance for examiners and banking
         organizations, including notifications on updates to OFAC’s SDN list;

     •   conducted OFAC-related training and outreach activities for examiners and the banking
         industry;

     •   issued BSA-related Cease & Desist (C&D) Orders that include OFAC-related provisions;
         and

     •   signed an interagency Memorandum of Understanding (MOU), which governs
         information-sharing between the FBAs and OFAC.


10
  Financial institutions may use “interdiction” software packages to compare transactions and accounts against the
OFAC SDN list and assist the institution in determining which transactions and/or accounts should be blocked or
rejected.

                                                       4
DSC could, however, enhance its supervisory approach to OFAC compliance by monitoring and
tracking financial institution OFAC sanctions violations, compliance program deficiencies, and
OFAC-related enforcement actions. These steps could assist the FDIC and OFAC in better
addressing the risks associated with financial institution noncompliance with OFAC regulations
and sanctions.

Evaluation of OFAC Compliance

DSC has implemented interagency guidelines for evaluating institutions’ OFAC compliance and
taken additional steps in support of OFAC regulations. According to the FFIEC BSA/AML
Examination Manual, to facilitate an examiner’s understanding of the financial institution’s risk
profile and to adequately scope an OFAC examination, an examiner should review the financial
institution’s:

   •   OFAC risk assessment that considers types of products, services, customers, transactions,
       and geographic locations;

   •   independent testing of its OFAC program;

   •   correspondence received from OFAC and, as needed, OFAC’s Web site to determine
       whether the institution has received any warning letters, fines, or penalties imposed by
       OFAC since the most recent examination; and

   •   correspondence related to periodic reporting of prohibited transactions and, if applicable,
       annual reports on blocked property.

The manual states that it is not the FBAs’ primary role to identify OFAC violations. Rather, the
examination procedures are designed to help examiners determine whether financial institutions
have policies, procedures, and processes in place for compliance with OFAC laws and
regulations commensurate with an institution’s OFAC risk profile. DSC officials stated that if
examiners identify significant issues with OFAC compliance during examinations, examiners
may conduct additional transactional testing related to those issues.

Additional steps taken by the FDIC in support of OFAC regulations and sanctions are described
below.

Interagency Guidance. DSC participated in the development of the FFIEC BSA/AML
Examination Manual, issued in June 2005, and an updated version issued in July 2006. The
project was a collaborative effort by the FBAs, OFAC, and FinCEN to ensure consistency in the
application of the BSA/AML and OFAC regulations. With respect to OFAC compliance, the
manual provides:

   •   expectations on OFAC compliance program elements;

   •   information on financial institutions’ responsibilities to report blocked and rejected
       accounts or transactions to OFAC;

   •   core procedures related to OFAC examinations; and
                                               5
   •   an OFAC risk matrix, which examiners should use, as appropriate, when assessing a
       financial institution’s risk of encountering OFAC issues.

The manual is available to the banking industry as a reference guide for OFAC-related issues. In
addition, DSC has issued financial institution letters (FIL) to announce new regulations and
policies, including updates to OFAC’s SDN list.

Examiner Training and Outreach Activities. DSC has conducted and/or participated in a
number of activities to familiarize examiners and financial institutions with guidance in the
FFIEC BSA/AML Examination Manual. These events included:

   •   a training Webcast in July 2005 for approximately 1,200 federal and state bank examiners
       to discuss the BSA/AML manual;

   •   a series of teleconferences in August 2005 for bankers that included an overview of the
       BSA/AML manual and a question-and-answer session;

   •   banker outreach and examiner training events in August 2005 in 5 major U.S. cities; and

   •   nationwide BSA/AML conference calls for the examination staff and financial
       institutions in September 2006 to discuss the July 2006 changes to the FFIEC BSA/AML
       Examination Manual. More than 1,500 examiners and 10,650 bankers and industry
       representatives participated.

In addition, according to the FFIEC Annual Report 2005, the FFIEC has conducted extensive
outreach activities with federal and state examiners and the banking industry on the FFIEC
BSA/AML Examination Manual and regulatory expectations, reaching more than 23,000 bankers
and examiners.

OFAC-Related Enforcement Actions. The FDIC has included OFAC-related provisions in
BSA-related C&Ds. We reviewed the FDIC Enforcement Decisions and Orders Web site to
identify C&Ds that included OFAC provisions for the period January 2004 through August 11,
2006. Although we did not identify any OFAC-specific C&Ds, we identified 10 cases in which
the FDIC had included OFAC provisions in BSA-related C&Ds. Those OFAC provisions
primarily related to financial institutions that had not implemented an adequate OFAC
compliance program and/or institutions that had not implemented policies and procedures to
ensure account databases were adequately compared against the OFAC SDN list.

Information Sharing With OFAC. To increase the level and extent of information sharing, the
FBAs signed an MOU with OFAC in April 2006. In accordance with the MOU, the FBAs and
OFAC can share information regarding OFAC’s administration and enforcement of economic
sanctions, compliance with OFAC regulations by financial institutions, and financial institutions’
violations of OFAC sanctions. Specifically, the FBAs are to notify OFAC of:

   •   apparent, unreported sanctions violations identified during examinations of financial
       institutions;

                                              6
     •   significant deficiencies11 in a banking organization’s policies, procedures, and processes
         for ensuring compliance with OFAC regulations.

In turn, OFAC will notify the respective FBA of enforcement actions OFAC takes against a
financial institution. In August 2006, DSC issued a memorandum to its regional offices to
formally communicate the information-sharing provisions of the MOU and establish a process
for the exchange of information with OFAC.

Supervisory Monitoring

DSC has not established a comprehensive process for monitoring and tracking financial
institution OFAC sanctions violations, compliance program deficiencies, or OFAC-related
enforcement actions. DSC field staff review OFAC-related concerns on an examination-by-
examination basis. Further, DSC does not consolidate this information to identify institution,
regional, or national trends or patterns of noncompliance or program deficiencies. Specifically,
we found that OFAC compliance information for FDIC-supervised institutions was not available
on the following items:

     •   the number of violations of OFAC regulations,

     •   specific financial institutions that had not implemented the expected OFAC compliance
         program elements,

     •   FDIC enforcement actions that include provisions related to OFAC noncompliance,

     •   OFAC enforcement actions against FDIC-supervised financial institutions for apparent
         violations of trade or economic sanctions, or

     •   historical examination results related to OFAC compliance.

In a prior audit report issued in March 2004, we reported that the FDIC tracked supervisory
actions related to BSA violations.12 Similarly, in another prior report issued in September 2006,
we noted that the FDIC also tracks supervisory actions related to a range of other regulatory
compliance requirements.13

In the absence of monitoring data from DSC, we contacted OFAC for information on FDIC-
supervised institutions. OFAC identified nine instances during 2004 and 2005 in which FDIC-

11
   A significant deficiency is a systemic or pervasive compliance deficiency or reporting and recordkeeping
violation, including a situation in which a banking organization fails to respond to supervisory warnings concerning
OFAC compliance deficiencies or systemic violations.
12
   On March 31, 2004, the FDIC OIG issued Audit Report No. 04-017 entitled, Supervisory Actions Taken for Bank
Secrecy Act Violations. The audit objective was to determine whether DSC had adequately followed up on reported
BSA violations to ensure that institutions implemented appropriate corrective action.
13
   On September 29, 2006, the FDIC OIG issued Audit Report No. 06-024 entitled, Division of Supervision and
Consumer Protection’s Supervisory Actions Taken for Compliance Violations. The audit objective was to determine
whether DSC had adequately addressed the violations and deficiencies reported in compliance examinations to
ensure that FDIC-supervised institutions took appropriate corrective action.


                                                       7
supervised financial institutions may have violated sanctions by failing to block transactions as
far back as 2001. The FDIC was aware of some, but not all, of the nine instances. At the time
that we contacted OFAC, only two of those nine instances had been resolved by OFAC.

Conclusion

DSC has implemented interagency guidelines for evaluating institutions’ OFAC compliance and
taken additional steps in support of OFAC regulations. However, DSC has not implemented
certain supervisory controls for OFAC compliance, such as a system or process to monitor and
track OFAC program deficiencies, institutions that may have violated OFAC sanctions, and
enforcement actions taken by the FDIC and/or OFAC. As a result, the level of focus placed on
OFAC compliance may not be sufficient to ensure that financial institutions implement the
necessary controls to comply with OFAC regulations and take necessary actions to correct
identified deficiencies and prevent future deficiencies or violations.

DSC could enhance its supervisory approach to OFAC compliance by monitoring and tracking
financial institution violations of OFAC sanctions, compliance program deficiencies, and OFAC-
related enforcement actions. A monitoring and tracking process would assist the FDIC in
identifying those financial institutions that may have a history of not implementing effective
controls to ensure compliance with OFAC regulations and, subsequently, may require further
supervisory and/or enforcement consideration.

Recommendation

We recommend that the Director, DSC:

1. Implement a process to monitor and track OFAC sanctions violations, deficient OFAC
   compliance programs, and OFAC-related enforcement actions to assist in monitoring OFAC
   compliance.

Corporation Comments and OIG Evaluation

The Director, DSC, provided a written response to a draft of this report on December 8, 2006.
DSC’s response is presented in its entirety in Appendix III of this report. DSC concurred with
recommendation 1 and implemented a process in November 2006 to track and monitor OFAC
sanctions violations and program compliance deficiencies. This process will help support DSC’s
coordination with OFAC, such as on the seven unresolved instances OFAC identified in 2004-
2005 in which FDIC-supervised institutions may have violated OFAC sanctions. DSC’s action
for recommendation 1 is responsive, and we consider the recommendation resolved. However,
the recommendation will remain open until we have determined that this action has been
completed and is effective. Appendix IV presents a summary of DSC’s responses to our
recommendations.




                                               8
DOCUMENTATION OF DSC’S EXAMINATION COVERAGE OF FINANCIAL
INSTITUTION OFAC COMPLIANCE

As instructed by the FFIEC BSA/AML Examination Manual OFAC core examination procedures,
examiners generally (1) relied on the financial institutions’ risk assessments and the results of the
institutions’ internal or external audits and (2) included documentation in the examination
workpapers on financial institutions’ OFAC compliance programs, including OFAC-related
policies and procedures, a designated compliance officer, internal controls, training, and
independent testing. However, examiner workpaper documentation and reports of examination
could be improved with respect to examination planning and contact with OFAC, completing
core examination procedures, and concluding on the adequacy of OFAC compliance programs
and interdiction systems used by the institutions. More complete documentation would ensure
that examiner conclusions regarding financial institutions’ controls established and implemented
for OFAC compliance are adequately documented, supported, and reported.

DSC’s Regional Directors Memorandum entitled, Guidelines for Examination Workpapers and
Discretionary Use of Examination Documentation Modules (Transmittal 2001-039, dated
September 25, 2001), defines standards for examination workpaper documentation. According
to the guidelines, examination documentation should (1) demonstrate a clear trail of decisions
and supporting logic and (2) provide written support for examination and verification procedures
performed and conclusions reached and support the assertions of fact or opinion in reports of
examination. Although the use of Examination Documentation (ED) Modules14 is discretionary,
the guidelines recommend that examiners use the ED Modules for the BSA examinations, which
include reviews of OFAC policies and procedures. DSC updated the ED Modules in July 2006
by incorporating the BSA/AML examination procedures, which include procedures for OFAC
compliance.

We reviewed examination documentation on OFAC reviews conducted by 2 DSC regional
offices for 16 financial institutions and made the following observations.

     •   Examination pre-planning documentation explicitly addressed OFAC compliance as a
         factor in determining the scope of examinations for 6 of the 16 institutions, while the pre-
         planning documentation for the other examinations did not specifically mention OFAC
         compliance. In some of these cases, examiners addressed BSA compliance in the
         examination pre-planning documentation, but it was not clear whether OFAC compliance
         had been considered. According to DSC guidance, examiners are to limit information in
         the pre-examination planning memoranda to an “exception only” basis for areas
         considered higher or lower-than-normal risk. Examiners are not required to comment on
         areas subject to regular examination procedures. Thus, we could not determine whether
         examiners had not considered OFAC compliance or there was “normal” risk that did not
         warrant mention in the pre-planning documentation.

14
  The ED Modules are an examination tool that focuses on risk management practices and guides examiners to
establish the appropriate examination scope. The modules incorporate questions and points of consideration into
examination procedures to specifically address a bank's risk management strategies for each of its major business
activities. In addition, the modules direct examiners to consider areas of potential risk and associated risk control
practices, thereby facilitating a more effective supervisory program.


                                                         9
   •   Although examiners reviewed OFAC correspondence that the financial institution
       maintained, there was no indication whether examiners had contacted their regional
       office, DSC headquarters, or OFAC before, during, or after the examination to determine
       whether those institutions have had any OFAC compliance civil money penalties or
       warning/cautionary letters or whether OFAC was conducting investigations or audits
       related to the financial institution being examined.

   •   Examination documentation of the extent of work completed was inconsistent for the
       OFAC-related core examination procedures provided in the FFIEC BSA/AML
       Examination Manual. For 5 of the 16 examinations, the core procedures had not been
       completed. Additionally, in four cases, examiners used check marks or symbols for some
       of the procedures without providing explanations of the symbols. However, in cases
       where the core procedures had not been completed, the workpapers contained evidence of
       documentation for some of the procedure steps. On the other hand, in seven cases,
       examiners provided detailed responses for each core procedure question.

   •   Examination workpapers and reports of examination did not usually include an overall
       conclusion on the sufficiency of the financial institution’s OFAC compliance program or
       the effectiveness of the financial institution’s interdiction system used to compare the
       institution’s accounts and transactions to the OFAC SDN list. Specifically, for 5 of the
       16 examinations, the examination results did not include the examiner’s conclusion on
       the sufficiency of the bank’s OFAC compliance program. Documentation for only 2 of
       the 16 examinations presented conclusions on the adequacy of the financial institution’s
       interdiction system.

Additionally, we found it was difficult to identify information on the results of OFAC reviews
because such information is embedded within the BSA/AML examination comments when
BSA/AML deficiencies are identified. The FFIEC BSA/AML Examination Manual states that
BSA and OFAC regulations are distinct and separate. However, financial institutions generally
incorporate procedures related to OFAC compliance programs into BSA programs. For
example, a financial institution’s OFAC officer is likely to be the institution’s BSA compliance
officer, OFAC training is often conducted simultaneously with BSA training, independent testing
of the OFAC program may be conducted concurrently with independent testing of the BSA
program, and OFAC policies and procedures may be included in the financial institution’s
overall BSA policies and procedures. One DSC official stated that all BSA/AML examinations
should include a review of a bank’s OFAC compliance; however, we found that examiners were
not consistent in including OFAC-related issues in examination comments.

Consistent and comprehensive documentation and reporting of OFAC compliance would better
assist the FDIC and subsequent examination teams in ensuring financial institution compliance
with OFAC laws and regulations. Additional examination guidance could help ensure that
OFAC concerns are clearly identified apart from BSA-related observations.




                                            10
Recommendations

We recommend that the Director, DSC:

2. Issue examination guidance to clarify the nature and extent of documentation expected for
   OFAC examination coverage, including documentation related to the planned scope of
   OFAC compliance coverage, OFAC actions related to the institution, the completion of core
   examination procedures, examination results and conclusions, and the effectiveness of the
   institution’s interdiction system.

3. Issue examination guidance on including the scope of work performed and conclusions on
   OFAC compliance in reports of examination.

4. Issue examination guidance to ensure that OFAC concerns at financial institutions are clearly
   identified apart from BSA-related observations for monitoring and tracking purposes.

Corporation Comments and OIG Evaluation

The Director, DSC, provided a written response to a draft of this report on December 8, 2006.
DSC’s response is presented in its entirety in Appendix III of this report. DSC concurred with
recommendation 2 and agreed with the intent of recommendations 3 and 4.

The FDIC and the other FBAs issued the Revised Bank Secrecy Act/Anti-Money Laundering
Examination Manual in July 2006, which provides additional OFAC examination guidance and
addresses aspects of recommendations 2 and 3. For recommendations 2 and 4, DSC agreed to
review its examination guidance and by September 30, 2007, issue revised guidance or
reminders to examiners, where necessary, to clarify the nature and extent of documentation
expected for OFAC examination coverage. With respect to recommendation 3, DSC issued
examination guidance on December 1, 2006, addressing the presentation of the scope of
examination work and conclusions on OFAC compliance in reports of examination. The
guidance adequately addresses our concerns. Therefore, we consider recommendation 3 to be
resolved and closed.

DSC’s completed and planned actions for recommendations 2 and 4 are responsive to the
recommendations, and we consider these recommendations resolved. However, these
recommendations will remain open until we have determined that agreed-to corrective actions
have been completed and are effective. Appendix IV presents a summary of DSC’s responses to
our recommendations.


MATTER FOR CONGRESSIONAL CONSIDERATION – AUTHORITIES FOR
SUPERVISION OF OFAC COMPLIANCE

As shown in detail in Appendix II, a more comprehensive statutory and regulatory framework
exists for ensuring compliance with the BSA than for OFAC compliance, although both laws
address national security and law enforcement concerns. The following sections summarize our
analysis of the differences and their potential implications.

                                             11
Examination and Enforcement Authority for BSA Compliance

Under Sections 8 and 10 of the Federal Deposit Insurance (FDI) Act, the FDIC has plenary
authority to examine banks and enforce compliance with laws and regulations. Nevertheless, the
Treasury Department has overall authority for BSA enforcement and compliance and has
delegated examination authority to the FBAs for institution compliance with BSA record-
keeping and reporting requirements. Further, of particular note:

   •   Section 8 of the FDI Act provides direct authority to the FBAs for BSA examination and
       enforcement.

   •   The FDI Act requires each FBA to (1) prescribe regulations requiring insured depository
       institutions to establish and maintain procedures reasonably designed to ensure and
       monitor compliance with the BSA, (2) review such procedures during examinations,
       (3) enforce compliance with the BSA monetary transaction recordkeeping and reporting
       requirements, and (4) issue C&Ds when deemed appropriate.

   •   The FDI Act authorizes the FBAs to impose civil money penalties for violations of C&D
       provisions.

Additionally, the FDIC Rules and Regulations, section 326.8, Bank Secrecy Act Compliance,
outlines the compliance program elements that FDIC-supervised banks must establish and
maintain to assure and monitor their compliance with BSA recordkeeping and reporting
provisions.

Failure by an FDIC-supervised financial institution to comply with the BSA requirements can
result in regulatory actions by the Treasury Department and/or the FDIC. The BSA and its
underlying regulations give the Treasury Department authority to assess civil money penalties
for violations and to refer cases to the Department of Justice for possible criminal prosecution.
The FDIC is required to report all identified BSA violations to the Treasury Department and to
refer violations that warrant penalties. Such referrals, however, do not preclude the FDIC from
taking regulatory action when BSA violations are identified.

Examination and Enforcement Authority for OFAC Compliance

The statutory and regulatory framework for OFAC compliance is generally limited to OFAC-
specific oversight and enforcement activities and focuses on transaction and account-level
requirements and penalties. Specifically, as discussed earlier, OFAC has overall responsibility
for developing, promulgating, and administering sanctions for the Treasury Department. In
addition:

   •   OFAC can review an institution’s compliance with OFAC-administered economic
       sanctions programs and take enforcement action through delegations of authority from
       the Secretary of the Treasury. However, these authorities have not been delegated to the
       FBAs that routinely perform OFAC compliance reviews as part of BSA/AML
       examinations. Additionally, the Government Accountability Office (GAO) and Treasury
       Department OIG have concluded that OFAC is limited in its ability to monitor financial

                                              12
         institution compliance with foreign sanction requirements and does not have the authority
         to conduct examinations or proactively monitor financial institutions for compliance.15

     •   Executive Order 13224 expanded the scope of U.S. sanctions against international
         terrorists and terrorist organizations and OFAC’s authority related to such activities.
         However, the Executive Order was not accompanied by comparable changes in the
         statutory framework for OFAC compliance. Additionally, the Executive Order did not
         address the FBAs’ authority in this area.

     •   Although financial institutions must comply with OFAC regulations and sanctions, there
         are no laws or regulations requiring institutions to have an OFAC compliance program.
         Therefore, the FBAs and OFAC must rely on financial institutions to implement
         appropriate controls to ensure compliance with OFAC-related laws and regulations as a
         matter of sound banking practice, not as a requirement. DSC officials have stated that
         (1) FDIC-supervised financial institutions are complying, to a great extent, with OFAC
         requirements and that (2) the lack of a statutory or regulatory requirement has not limited
         the extent of the FDIC’s oversight and supervision of OFAC compliance programs.

     •   The FBAs lack specific statutory and regulatory authority for taking enforcement actions
         associated with institution noncompliance with OFAC regulations. Instead, U.S.C.
         Title 12 authorizes the FBAs to take certain enforcement actions if they determine that an
         institution is engaging in unsafe and unsound practices or has violated any applicable law
         or regulation. The FBAs have interpreted this authority to allow them to take formal
         enforcement actions aimed at addressing violations of OFAC regulations. However, we
         did not identify any instances in which the FDIC had taken enforcement actions solely
         related to OFAC sanctions violations or program deficiencies. Rather, some supervisory
         actions that addressed BSA violations and deficiencies also addressed OFAC
         deficiencies.

The FDIC and OFAC have provided guidance to financial institutions that outline controls that
financial institutions are expected to implement to ensure compliance with OFAC requirements.
The guidance states that financial institutions should establish and implement controls similar to
those required for BSA compliance programs. According to the FFIEC BSA/AML Examination
Manual, as a matter of sound banking practice and in order to ensure compliance with OFAC
regulations, financial institutions should establish and maintain an effective, written OFAC
compliance program commensurate with their specific product lines, customer base, nature of
transactions, and identification of high-risk areas for OFAC transactions. Recognizing high-risk
areas, an institution should include in its compliance program appropriate internal controls
necessary to meet established expectations and ensure compliance. Those controls should
include:

15
  GAO report entitled, Foreign Regimes’ Assets: The United States Faces Challenges in Recovering Assets, but Has
Mechanisms That Could Guide Future Efforts (GAO-04-1006, dated September 14, 2004), and Treasury
Department OIG report entitled, Foreign Assets Control: OFAC’s Ability To Monitor Financial Institution
Compliance Is Limited Due To Legislative Impairments (OIG-02-082, dated April 26, 2002). According to OFAC,
however, to the extent that these reports may be understood to conclude that its authority to conduct compliance
reviews is impaired, OFAC respectfully disagrees.


                                                    13
     •   a risk assessment based on product lines, customer base, nature of transactions, and
         identification of high-risk areas for OFAC transactions;
     •   policies and procedures;
     •   a designated compliance officer;
     •   a system of internal controls;
     •   training; and
     •   independent testing.

In addition, OFAC’s guidance entitled, Foreign Assets Control Regulations for the Financial
Community, dated November 23, 2005,16 outlines the type of controls that could be implemented
to ensure that financial institutions properly identify and block or reject prohibited transactions
and report these transactions to OFAC. The guidance, however, does not constitute a legally-
enforceable requirement for a compliance program.

Conclusion

Although Executive Order 13224 expanded the scope of U.S. sanctions against international
terrorists and terrorist organizations, and OFAC’s authority related to such, there was no
statutory change to recognize OFAC’s expanded authority. Additionally, the Order did not
address the FBAs’ authorities related to OFAC examination coverage or enforcement. Whether
additional and specific authority is needed to better ensure compliance with OFAC regulations
and sanctions is a matter for congressional consideration. In that regard, we are providing this
information to assist the Congress in considering whether more specific statutory authorities,
particularly as they relate to OFAC compliance programs and enforcement action, would
heighten the extent of institution and regulatory attention to this area and help mitigate the
increased risk associated with terrorist and other criminal activities using the Nation’s financial
system.




16
   The January 12, 2006 Federal Register contained guidance on OFAC enforcement procedures entitled, Economic
Sanctions Enforcement Procedures for Banking Institutions, taking into account that each financial institution’s
situation is different and that financial institutions’ compliance programs should be tailored to their unique
circumstances. OFAC’s review of information may include, but not be limited to, the evaluation of a financial
institution’s OFAC compliance program by its primary federal regulator; the institution’s history of OFAC
compliance; the circumstances surrounding any apparent violation, including what appear to be patterns or
weaknesses in an institution’s compliance program and whether they indicate negligence or a fundamental flaw in
the compliance effort or system and whether they were voluntarily disclosed; and enforcement information provided
by the institution to OFAC.

                                                     14
                                                                                     APPENDIX I

                         OBJECTIVE, SCOPE, AND METHODOLOGY


Objective

The objective of this audit was to determine whether DSC provides effective supervision of
compliance with OFAC regulations by FDIC-supervised institutions. To address our audit
objective, we (1) assessed the FDIC’s statutory and regulatory authorities for ensuring OFAC
compliance by the institutions it supervises, (2) reviewed DSC’s supervisory and examination
processes for OFAC compliance, and (3) reviewed 16 sampled examinations for DSC coverage
of OFAC compliance.

This report discusses statutory and regulatory issues that have a bearing on the FDIC’s oversight
of financial institutions’ OFAC compliance programs. These issues may apply equally to the
other FBAs, which also examine financial institutions for OFAC compliance. In addition, this
report includes observations from our review of OFAC examination coverage by DSC at
sampled financial institutions. We performed our audit from March through August 2006 in
accordance with generally accepted government auditing standards.

Scope and Methodology

We performed the following steps to address the audit objective.

   •   Interviewed FDIC officials at DSC headquarters in Washington, D.C., and the Atlanta
       and New York Regional Offices.

   •   Identified applicable laws, regulations, criteria, and other guidance on OFAC and BSA
       compliance as follows:

            •   OFAC regulations, C.F.R. Title 31, Money and Finance Treasury Part V-Foreign
                Assets Control Regulations, (31 C.F.R., Chapter V).

            •   OFAC guidance, entitled, Foreign Assets Control Regulations for the Financial
                Community, dated November 23, 2005.

            •   OFAC guidance in the Federal Register entitled, Economic Sanctions Enforcement
                Procedures for Banking Institutions, dated January 12, 2006 (Interim final rule
                31 C.F.R. Part 501).

            •   Bank Secrecy Act of 1970, Public Law 91-508, codified to 31 U.S.C. Section 5311
                et seq., also known as the Currency and Foreign Transactions Reporting Act.

            •   31 C.F.R. Part 103, Financial Recordkeeping and Reporting of Currency and
                Foreign Transactions, the BSA’s implementing regulation.

            •   FDIC Rules and Regulations:

                        Section 326.8, codified to 12 C.F.R. Section 326.8,
                        Section 337.12, codified to 12.C.F.R. Section 337.12, and
                                                15
                                                                                 APPENDIX I

                       Section 353, codified to 12 C.F.R. Section 353.

           •   Section 8 and Section 10(b) of the FDI Act.

           •   DSC’s examination policies and procedures, including:

                       Risk Management Manual of Examination Policies, Section 8.1, Bank
                        Secrecy Act, Anti-Money Laundering and Office of Foreign Assets
                        Control.

                       FFIEC BSA/AML Examination Manual, issued June 30, 2005 and updated
                        July 28, 2006.

          •    FILs announcing the issuance of the FFIEC BSA/AML Examination Manual and
               updates to the OFAC SDN list.

   •   Reviewed DSC’s Regional Directors Memoranda entitled, Guidelines for Examination
       Workpapers and Discretionary Use of Examination Documentation Modules, Transmittal
       2001-039; Monitoring and Tracking of BSA Problem Institutions, Transmittal 2004-025;
       and Compliance with Office of Foreign Assets Control Memorandum of Understanding,
       Transmittal 2006-024.

   •   Reviewed the Right to Financial Privacy Act (RFPA) of 1978 (12 U.S.C. Section 3401),
       which governs the sharing of financial information held by financial institutions.

   •   Met with OFAC officials and reviewed the Treasury Department’s OIG and Government
       Accountability Office (GAO) reports on OFAC compliance.

   •   Identified applicable laws and regulations related to DSC’s examination and enforcement
       authority for BSA/AML and OFAC.

   •   Reviewed a judgmental sample of 16 financial institution BSA/AML examinations
       started on or after September 1, 2005 and ended on or before April 10, 2006 to determine
       the extent of examination coverage for OFAC compliance. We reviewed reports of
       examination and examination workpapers that included preplanning documentation,
       financial institution BSA/AML and OFAC risk assessments, core examination
       procedures, correspondence files, documentation supporting OFAC training, independent
       testing, policies and procedures, updates to the SDN list, and designations of an OFAC
       compliance officer.

   •   Reviewed information on possible FDIC-supervised financial institutions’ failures to
       comply with OFAC regulations.

   •   Reviewed the FDIC’s Web site for information on C&Ds issued for BSA and/or OFAC
       noncompliance for January 1, 2004 through August 11, 2006.

In addition, we coordinated with the FDIC Ombudsman’s Office to determine whether that office
had (1) received general concerns, comments, or complaints related to OFAC compliance or
(2) generated any related trend information or bankers’ perspectives. The Ombudsman’s Office
                                              16
                                                                                    APPENDIX I

responded that it did not have a sufficient basis on which to identify trends regarding OFAC nor
would such data address our audit’s goal of determining the effectiveness of the FDIC’s
supervision of state non-member banks’ compliance with OFAC regulations.

In addition, we coordinated with the OIGs for Treasury, FRB, and NCUA regarding previous or
ongoing audit work related to OFAC compliance.

Evaluation of Internal Controls

We gained an understanding of the internal control activities relevant to the FDIC’s examination
process for OFAC compliance by identifying and reviewing applicable policies and procedures
related to the FDIC’s examination of financial institution examination for OFAC compliance,
including guidance provided to FDIC examiners (FFIEC BSA/AML Examination Manual, DSC
Risk Management of Examination Policies, FILs, OFAC regulations, and OFAC guidance issued
January 12, 2006). Additionally, we interviewed DSC officials responsible for BSA/AML and
OFAC examinations in DSC headquarters and selected regional and field offices.

Our assessment of internal controls determined that the FDIC has implemented some internal
controls and interagency guidance related to examinations of financial institution compliance
with OFAC regulations. However, controls related to the implementation of OFAC compliance
programs need improvement, as indicated in our Results of Audit.

Reliance on Computer-based Data

We used computer-based data and reports from the Virtual Supervisory Information on the Net
(ViSION) system to identify the universe of examinations conducted from September 1, 2005
through April 10, 2006. However, we did not test the reliability of computer-based data
extracted from ViSION because the data were not significant to our conclusions or
recommendations.

Compliance With Laws and Regulations

We reviewed applicable laws and regulations on OFAC compliance. We determined that there
are no laws or regulations that apply to or require the FDIC’s examination of financial
institutions for OFAC compliance, except those that relate, in general, to the FDIC’s overall
examination authority (Section 10(b) of the FDI Act, and Section 337.12 of the FDIC Rules and
Regulations). In addition, we determined that the FDIC does not have specific authority to
enforce OFAC compliance. In the absence of such specific authority, the FDIC relies on its
general authority to impose enforcement actions under Section 8 of the FDI Act to take action for
OFAC compliance as it relates to operating a financial institution in an unsafe and unsound
manner or noncompliance with laws and regulations.

Although financial institutions must comply with OFAC regulations and sanctions, no laws or
regulations require financial institutions to have an OFAC compliance program. According to
the FDIC Risk Management Manual of Examination Policies, there are no regulatory program
requirements for institutions’ OFAC compliance. Additionally, DSC officials stated that there
are no express statutory or regulatory provisions for financial institutions to have programs that
comply with OFAC-administered laws or to check OFAC’s SDN list before processing a
transaction or opening an account. However, DSC officials also indicated that failure to have an
                                                17
                                                                                    APPENDIX I

adequate OFAC compliance program could be an unsafe and unsound practice. This report
identifies actions that DSC could take to improve management controls over the supervision of
OFAC compliance.

Government Performance and Results Act

We reviewed DSC’s performance measures under the Government Performance and Results Act,
Public Law 103-62. We reviewed the FDIC’s 2005-2010 Strategic Plan and 2006 Corporate
Annual Performance Plan to determine whether the FDIC has established goals related to OFAC
compliance. Neither plan includes goals, objectives, or indicators specifically related to OFAC
compliance. Those documents, however, include information related to BSA examinations and
compliance and reference OFAC in a discussion on BSA/AML training.

Fraud and Illegal Acts

The nature of the audit objective did not require that we assess the possibility for fraud and
illegal acts. However, we were alert to the possibility of fraud and illegal acts, and none came to
our attention during this audit.

Summary of Prior Audit Coverage

The FDIC OIG has not previously performed an audit specifically focused on OFAC
examination coverage. However, on March 31, 2004, the FDIC OIG issued Audit Report No.
04-017 entitled, Supervisory Actions Taken for Bank Secrecy Act Violations. That audit
addressed FDIC BSA/AML examinations, which included coverage of OFAC compliance.

We reviewed audit reports related to OFAC compliance issued by the Treasury Department OIG
and the GAO. The Treasury Department’s OIG issued a report entitled, Foreign Assets Control:
OFAC’s Ability To Monitor Financial Institution Compliance Is Limited Due To Legislative
Impairments (OIG-02-082, dated April 26, 2002), which concluded that OFAC is limited in its
ability to monitor financial institution compliance with foreign sanctions. The report
recommended that the Treasury Department inform the Congress that:

   •   OFAC lacks sufficient authority to ensure financial institution compliance with foreign
       sanctions, and

   •   OFAC’s ability to ensure financial institution compliance with foreign sanctions would
       be enhanced through a legislative change that would enable bank regulators to share
       information about their compliance examinations with OFAC.

The report concluded that information sharing could be accomplished by amending the RFPA to
include OFAC in the definition of “bank regulator.” In response, OFAC agreed that its current
legislative authority could be improved in terms of the information shared by bank regulators but
stated that, despite statutory limitations, OFAC and the financial regulators have created an
adequate compliance system. In February 2004, OFAC’s Director informed the Senate Finance
Committee that OFAC had engaged in discussions with the Treasury Department about the
desirability of adopting the recommendation for legislative change for information sharing and
that the Treasury Department was reviewing whether certain changes in the technical definitions
of the RFPA would further enhance OFAC’s ability to ensure compliance. The FBAs signed an
                                               18
                                                                                    APPENDIX I

MOU with OFAC in April 2006 that governs information sharing between the FBAs and OFAC
and addresses some of the limits on sharing individual financial account information by relying
on financial institutions to provide this information directly to OFAC, when needed.

GAO issued a report entitled, Foreign Regimes’ Assets: The United States Faces Challenges in
Recovering Assets, but Has Mechanisms That Could Guide Future Efforts (GAO-04-1006, dated
September 14, 2004). GAO reported the following:

   •   The primary way OFAC learns about violations of its regulations is through its review of
       mandatory reports filed by financial institutions.

   •   In every instance in which a U.S. bank has acted inappropriately, OFAC has sent
       information regarding the transaction to the appropriate financial regulator.

   •   In a limited number of instances, OFAC learns about violations of its regulations through
       “self-disclosure” by financial institutions or when a second institution involved in a
       transaction subsequent to the first institution blocks a transaction and notifies OFAC, thus
       also informing OFAC of the first institution’s involvement in the transaction.

GAO also reported that OFAC’s ability to monitor financial institutions’ compliance with its
regulations is hampered because the varied legislation under which OFAC operates does not
provide it with the authority to proactively monitor financial institution compliance with foreign
sanctions. GAO further stated that OFAC’s ability is limited because it does not have
supervisory authority over financial institutions and, thus, relies on the financial institutions’
regulators to monitor institutions’ OFAC compliance programs. GAO recommended, among
other things, that the Treasury Department seek legislative authority to allow financial regulators
to share complete information from examinations. The Treasury Department responded that it
was working on this issue and was uncertain whether a legislative change was needed to allow
OFAC access to information from financial regulators’ examinations. In addition, the Treasury
Department stated that it was working with the financial regulators for comprehensive
arrangements for information sharing. Our current audit addressed the information-sharing
MOU signed by OFAC and the FBAs.




                                              19
                                                                                             APPENDIX II

                       REGULATORY AUTHORITY AND OVERSIGHT
                           FOR OFAC AND BSA COMPLIANCE

      ELEMENT           OFAC BSA                    REGULATORY AUTHORITY AND OVERSIGHT
 REGULATIONS AND DELEGATED AUTHORITY
 Compliance Program       No       Yes   OFAC Regulations (31 C.F.R. Part V) require financial institutions to
 Required                                comply with sanctions; but there is no specific requirement for financial
                                         institutions to implement an OFAC compliance program. FDIC Rules and
                                         Regulations, Section 326.8 requires financial institutions to implement a
                                         compliance program for BSA.
 FDIC Rules and           No       Yes   FDIC Rules and Regulations, Section 326.8 applies to BSA.
 Regulations
 Specific Delegated       No       Yes   The Treasury Department’s FinCEN and FDI Act, Section 8 provide
 Authority                               delegated authority for BSA.
 COMPLIANCE PROGRAM
 Written Board-           Yes      Yes
 Approved Policies
 and Procedures
 Internal Controls        Yes      Yes    OFAC Regulations (31 C.F.R. Part V), FFIEC BSA/AML Examination
 Independent Testing      Yes      Yes    Manual; FDIC Section 326.8 for BSA; and Section 8(s) of the FDI Act.
 Compliance Officer       Yes      Yes
 Training                 Yes      Yes
 Legal Requirement        No       Yes
 EXAMINATION AND ENFORCEMENT AUTHORITY
 General Examination      Yes      Yes    FDI Act Section 10(b) examination authority and FDIC Rules and
 Authority                                Regulations, Section 337.12.
 Specific Examination     No       Yes    FDI Act Section 8 examination authority.
 Authority
 General Enforcement      Yes      Yes    FDI Act Section 8, which addresses the FDIC’s authority to impose
 Authority                                formal enforcement actions for unsafe and unsound practices and
                                          noncompliance with laws and regulations.
 Specific Enforcement     No       Yes    FDI Act Section 8(s) and Section 8(i); FDIC Rules and Regulations
 Authority                                Section 326.8 and Part 353, and Treasury Department’s 31 C.F.R. Part
                                          103 recordkeeping and reporting requirements for BSA.
 Other Entity             Yes      Yes    Treasury Department’s OFAC for OFAC and Treasury Department’s
 Authorized to                            FinCEN for BSA.
 Enforce Compliance
 SUPERVISORY MONITORING
 Cite and Track           No       Yes    Based on cited violations in accordance with FDIC Rules and Regulations
 Violations                               Section 326.8 and Part 353, and Treasury’s 31 C.F.R. Part 103
                                          recordkeeping and reporting requirements.
 Automated                No       Yes    FDIC’s manual case-by-case review of ViSION data for OFAC issues.
 Monitoring System                        FDIC’s automated system (ViSION) for BSA.
 or Process
 Monitoring and           No       Yes    Regional Directors Memorandum, Monitoring and Tracking of BSA
 Tracking of Problem                      Problem Institutions.
 Institutions
 EXAMINATION GUIDANCE
 Risk-Focused             Yes      Yes
 Examinations
                                          FFIEC BSA/AML Examination Manual.
 Risk Matrix              Yes      Yes
 Core Procedures          Yes      Yes
 Expanded Procedures      No       Yes
Source: OIG review of the FFIEC BSA/AML Examination Manual, FDIC examination guidance, FDIC Rules and
Regulations, Treasury Department’s BSA reporting and recordkeeping requirements and OFAC regulations, and the
FDI Act.
                                                    20
     APPENDIX III




22
     APPENDIX III




23
                                                                                                                         APPENDIX IV




                                    MANAGEMENT RESPONSE TO RECOMMENDATIONS
This table presents the management response on the recommendations in our report and the status of the recommendations as of the date
of report issuance.
                                                                                                                Open
                                                                                                           a
  Rec.             Corrective Action: Taken or                 Expected            Monetary    Resolved:         or
  No.                      Planned/Status                   Completion Date        Benefits    Yes or No       Closedb
          DSC has implemented a centralized process to     November 30, 2006         $0         Resolved        Open
    1     track violations of OFAC sanctions and
          institutions with compliance program
          deficiencies. Records for all enforcement
          actions, including those with OFAC
          provisions, are stored in ViSION’s Formal
          and Informal Actions Tracking module.
          DSC will review examination guidance for         September 30, 2007         $0        Resolved        Open
    2     opportunities to provide additional
          clarification. On July 28, 2006, DSC issued a
          Regional Directors Memorandum entitled,
          Revised Bank Secrecy Act/Anti-Money
          Laundering Examination Manual, which
          provides guidance on the review of a financial
          institution’s risk assessment and audit. In
          addition, on December 9, 2005, DSC issued a
          Regional Directors Memorandum entitled,
          Formal and Informal Actions Procedures
          Manual, which provides guidance on
          administrative procedures for formal and
          informal corrective actions.
          DSC agreed with the intent of this               December 1, 2006           $0        Resolved       Closed
    3     recommendation. On December 1, 2006,
          DSC issued examination guidance addressing
          the presentation of the scope of examination
          work and conclusions on OFAC compliance
          in reports of examination.

                                                                  24
                                                                                                                                                APPENDIX IV

                                                                                                                                       Open
     Rec.             Corrective Action: Taken or                           Expected                 Monetary       Resolved:a          or
     No.                      Planned/Status                            Completion Date              Benefits       Yes or No         Closedb
              DSC agreed with the intent of this                       September 30, 2007              $0            Resolved          Open
       4      recommendation. As stated in response to
              recommendation 1, DSC has implemented a
              centralized system to track violations of
              OFAC sanctions and institutions with
              compliance program deficiencies. In addition,
              DSC will review existing guidance and, as
              necessary, issue revised guidance or
              reminders to examiners.
a
    Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
                   management provides an amount.
b
    Once the OIG determines that the agreed-upon corrective actions have been completed and are effective, the recommendation can be closed.




                                                                                 25
